        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's Audit
Resolution and Follow-up Process




DOE/IG-0840                      September 2010
                                Department of Energy
                                  Washington, DC 20585

                                     September 23, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of
                          Energy's Audit Resolution and Follow-up Process"

BACKGROUND

The Department of Energy's audit resolution and follow-up process provides an important
mechanism for assisting management in improving the performance of the Department
and its programs. Over the last 5 years, the Office of Inspector General (OIG) has
completed over 350 audits, which included recommendations for corrective actions or
improvements in programs, operations, and management functions. Ensuring that these
recommendations are addressed and resolved timely is a critical component of the audit
process. With this goal in mind, Department Order 224.3, Audit Resolution and Follow-
up Program, generally requires that audit reports and all associated recommendations be
closed within one year and that management officials certify that corrective actions have
been completed and that they are effective prior to closure.

In May 2007, the OIG performed a review of The Department's Audit Resolution and
Follow-up Process (DOE/IG-0766). During that effort we noted that in some cases,
agreed-upon recommendations had been closed despite the fact that corrective actions
were not always complete or effective. In response to the 2007 report, management
officials agreed to issue guidance reemphasizing audit resolution and requirements to
perform periodic follow-up activities to help ensure that corrective actions are effective.
We initiated this audit to determine whether the Department had corrected previous
problems with the audit resolution and follow-up process and whether related issues
identified through recent audits had been resolved.

RESULTS OF AUDIT

The Department's audit follow-up process had been improved. Yet, we found that
additional efforts are needed to ensure that prompt and effective corrective actions are
taken to resolve weaknesses identified by OIG audits. During our review of closed
recommendations, we found that corrective actions had either not been completed or had
not resolved all of the significant issues outlined in four of the five previously issued audit
reports that were included in our examination. Specifically, management closed
recommendations related to the four reports even though:
                                                 2


           Five Department sites were still not consistently completing security clearance
           terminations in a timely manner. Our recent testing revealed that 19 of 104 (18
           percent) clearances we tested inappropriately remained active for periods of up to
           4 months after employee departures;

           The Department had not fully developed and implemented policies for managing
           electronic records or taken action to eliminate duplicative records retention and
           management systems;

           Sites across the Department had not resolved information technology (IT) systems
           inventory issues and weaknesses in outdated security plans in a timely manner.
           This problem was at least partially attributable to the fact that about 39 percent of
           existing corrective action milestones had missed estimated remediation dates,
           with many exceeding planned completion dates by at least one year; and,

           The National Nuclear Security Administration (NNSA) did not fully complete the
           action to establish roles and responsibilities in work-for-others agreements until
           one year after closing the associated recommendation.

We also observed that in many cases the Department had not met its established target
milestones for audit report closure. Notably, more than half of the 32 audit reports issued
between May 2007 and August 2009, had not met or will not meet the Department's one-year
target closure date.

The cause of the problems in the audit resolution process varied on a case-by-case basis.
There were some common elements, however. We noted, for example, that many officials
concluded that the available guidance was insufficient and that the effort suffered from
inadequate monitoring and oversight of the audit resolution and follow-up process. For
example, Departmental guidance lacked specificity regarding the criteria, timing, or process
to be followed in performing and documenting formal audit follow-up assessments. As a
result, Departmental elements submitted assurance certifications without always performing
a formal follow-up to assess the efficacy of actions taken. Consequently, the Department had
not always realized potential programmatic savings and operational efficiencies that could be
achieved through a robust audit resolution process. For instance, we identified two open
audit reports containing unresolved audit recommendations greater than one year old where
realization of potential savings of $14 million may be delayed until corrective actions are
taken; and, such delays increase the likelihood that the savings may be lost entirely. Beyond
pure financial terms, failure to correct recurring problems such as not terminating security
clearances or addressing information systems inventory and access control weaknesses could
also endanger Department workers and material assets.

We recognize that some of the audit recommendations involved complex issues, requiring
significant resource investments and coordination, sometimes with external entities. We also
acknowledge that a great deal of effort has been dedicated to resolving audit issues, resulting
in the Department's reported closure of almost 300 recommendations in the past year. The
Office of the Chief Financial Officer (OCFO) recently established a Program Assessment
                                               3


Team to improve the Department's management of audit findings and recommendations,
including follow-up on key findings and recommendations. It has also established a
Department-wide working group to improve the Departmental Audit Report Tracking System
and is currently assembling a working group to improve implementation of audit
recommendations. These actions are encouraging and should highlight the importance of
having a vigorous audit follow-up system where prompt and effective corrective actions are
taken and operational problems resolved. To aid the Department in this area, we have
provided several recommendations designed to help ensure that this process is more effective
and minimize the recurrence of the same or similar findings in the future.

MANAGEMENT COMMENTS

The Department and NNSA generally expressed a commitment to resolving issues and
concerns identified in Audit Reports and improving its resolution and follow-up procedures.

Management's comments are summarized in the body of our report and have been included
verbatim in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Financial Officer
    Acting Chief Information Officer
REPORT ON THE DEPARTMENT OF ENERGY'S AUDIT RESOLUTION
AND FOLLOW-UP PROCESS


TABLE OF
CONTENTS


  Audit Resolution and Follow-up Process

  Details of Finding                                    1

  Recommendations                                       7

  Comments                                              8


  Appendices

   1. Objective, Scope, and Methodology                 10

   2. Prior Audit Reports                               12

   3. Management Comments                               16
AUDIT RESOLUTION AND FOLLOW-UP PROCESS

Audit Follow-up    Since the issuance of our 2007 report, the Department of Energy
                   (Department) has taken action to improve its audit resolution and
                   follow-up process. For example, in October 2007, the Office of
                   the Chief Financial Officer (OCFO) issued guidance
                   reemphasizing Department and National Nuclear Security
                   Administration (NNSA) responsibilities related to audit resolution
                   and follow-up. The OCFO also adopted a process for requesting
                   quarterly updates to the Departmental Audit Report Tracking
                   System (DARTS), including signed Assurance of Effectiveness of
                   Corrective Actions (assurance certification) for completed
                   recommendations. In addition, the Department and NNSA have
                   continued to update target dates in DARTS to track the
                   implementation and completion of corrective actions.

                   While these process-related efforts have improved administration,
                   functional weaknesses with the audit resolution process continue to
                   exist. For example, we found that in many cases:
                   (1) recommendations from prior reports were closed, but corrective
                   actions to address the recommendations were not always complete
                   or effective; and, (2) target milestones established by the
                   Department for audit report closure were not met, and in a number
                   of cases, planned corrective actions were significantly overdue.

Recurring Issues   Based on our review of closed recommendations contained in five
                   previously issued audit reports, we determined that for four of the
                   reports, corrective actions had not been completed or significant
                   issues had not been effectively resolved. Our testing revealed that
                   weaknesses remained in security clearance terminations,
                   Departmental records retention, work-for-others agreements, and
                   information technology security.

                                    Security Clearance Terminations

                   An October 2007 report on Selected Aspects of the East Tennessee
                   Technology Park's Security Clearance Retention Process
                   (DOE/IG-0779) found that security clearances for terminated
                   employees at the East Tennessee Technology Park (ETTP) were
                   inappropriately and unnecessarily retained beyond the period
                   permitted by Departmental policy. In accordance with Department
                   Order 470.4A, Safeguards and Security Program, the processing
                   personnel security office must be notified within 2 working days of
                   when an individual no longer requires an access authorization.
                   Accordingly, we made recommendations to improve the security
                   clearance process. Management's response to the report indicated
                   that corrective actions had been completed and, consequently, the
                   recommendations were closed with the issuance of the audit report.



Page 1                                                            Details of Finding
         However, our recent analysis found that security clearances were
         not always being terminated in a timely manner at the five sites
         selected for review. We reviewed a mix of 104 active and
         terminated security clearances from ETTP, Oak Ridge National
         Laboratory, Sandia National Laboratories, Los Alamos National
         Laboratory, and Brookhaven National Laboratory (Brookhaven).
         One active security clearance at Brookhaven was held open for
         2 months after an employee quit working and 18 terminated
         clearances at the other four sites reviewed were processed 1 to
         4 months late, including 10 of 28 clearances reviewed at ETTP.
         Failure to terminate these clearances in a timely manner increased
         the risk that unauthorized individuals could gain access to sensitive
         sites and information.

                            Work for Others Agreements

         In a September 2007 report on NNSA Construction of a
         Radiological/Nuclear Complex for Homeland Security (DOE/IG-
         0775), we recommended that NNSA establish Work for Others
         (WFO) agreements that specify responsibilities for monitoring
         contract performance and approving project baselines and changes
         to cost, scope, and schedule. According to a status of corrective
         actions entry in the Departmental Audit Report Tracking System
         (DARTS), NNSA issued draft guidance to its sites in
         September 2008 that established roles and responsibilities regarding
         WFO agreements. With that action, NNSA considered the
         recommendation closed. However, an October 2009 report on
         Work for Others Performed by the Department of Energy for the
         Department of Defense (DOE/IG-0829) found that NNSA did not
         finalize guidance to its site offices on WFO agreements until
         August 2009 – after we brought the matter to its attention.
         According to an NNSA official, the guidance was not finalized
         pending a Department decision regarding the applicability of
         June 2008 Office of Management and Budget guidance, as well as
         an NNSA assessment of its site offices' execution of the WFO
         program. Nonetheless, NNSA had closed the recommendation one
         year prior to fully implementing the corrective action.

                          Information Technology Security

         Both the 2007 and 2008 annual Office of Inspector General (OIG)
         evaluation reports on The Department's Unclassified Cyber
         Security Program (DOE/IG-0776 and DOE/IG-0801) identified the
         need for improvements in areas such as systems inventory, access
         control, and configuration management. According to those
         reports, these internal control weaknesses existed, at least in part,



Page 2                                                   Details of Finding
         because program officials had not ensured that corrective action
         tracking plans, known as Plans of Action & Milestones (POA&M),
         were used effectively. Also, officials had not performed effective
         management review activities essential for evaluating the adequacy
         of cyber security performance.

         The 2009 evaluation of The Department's Unclassified Cyber
         Security Program (DOE/IG-0828) reported that the Department
         continued to make incremental improvements in its unclassified
         cyber security program and that most sites had taken action to
         address weaknesses identified in the previous report. However, the
         2009 evaluation also identified recurring weaknesses at sites
         managed by NNSA and across various Department program
         elements. Weaknesses such as outdated security plans and not
         completing annual security control self-assessments were
         identified at several sites. Additionally, the Department had not
         yet resolved systems inventory issues and had yet to deploy a
         complex-wide automated asset management tool. According to the
         report, these weaknesses were found at multiple sites because, as in
         the prior years, Department management had not effectively
         monitored and reviewed activities essential for evaluating the
         adequacy of cyber security performance. In some cases, officials
         had not ensured weaknesses discovered during audits were
         recorded and tracked to resolution in the organizations' POA&Ms.
         Notably, our review revealed that implementation delays continued
         to exist and that about 39 percent of existing corrective action
         milestones had missed estimated remediation dates, with many
         exceeding planned completion dates by at least one year.

                          Departmental Records Retention

         An April 2005 report on The Retention and Management of the
         Department's Records (DOE/IG-0685) recommended that the
         Department develop and finalize a detailed records management
         policy to address requirements for storing electronic records,
         incorporate records management into the system development life-
         cycle, and develop a corporate solution to eliminate duplicative
         systems. Our Follow-up Audit on Retention and Management of
         the Department of Energy's Electronic Records (DOE/IG-0838)
         found that while the Department had taken certain actions in
         response to recommendations made in the prior report, it was still
         not adequately managing its electronic records and had taken only
         limited action to eliminate duplicative record management
         systems. Specifically, the Department had not fully developed




Page 3                                                  Details of Finding
         and/or implemented overall policies for managing electronic
         records and sites had not implemented records management
         applications to aid in maintaining and disposing of such records.

                           Timeliness of Closure Actions

         We also found that, in many instances, the Department had not met
         its established target milestones for audit report closure.
         Department Order 224.3, Audit Resolution and Follow-up
         Program, requires that closure of audit reports should generally
         take no longer than one year after issuance of the final report.
         However, more than half of the 32 audit reports issued between
         May 2007 and August 2009 that we reviewed had not met or will
         not meet the one-year target closure date. Although the
         Department had been establishing and updating target dates for the
         completion of the corrective actions and tracking progress in
         DARTS, six of the eight closed audit reports we reviewed
         exceeded the one-year deadline. Additionally, more than half of
         the 24 open reports had already exceeded the one-year target, with
         6 open in excess of 20 months.

         We recognize that some recommendations may involve corrective
         actions of a complex or technical nature that require more than a
         year to bring to a close. We also observed that most of the status
         updates in DARTS demonstrated that incremental progress was
         being made toward completion of these corrective actions.
         However, some Departmental elements significantly exceeded
         their original estimates for completing corrective actions without
         providing assurance certifications or closing the reports in
         accordance with Department Order 224.3, as illustrated by the
         following examples:

             •   Beryllium Surface Contamination at the Y-12 National
                 Security Complex (DOE/IG-0783) was issued in
                 December 2007 and recommended that the Chief Health,
                 Safety and Security Officer revise the Department's
                 regulations to require controls, including posting areas
                 when surface beryllium contamination occurs in non-
                 operational areas. In March 2008, the Beryllium rule was
                 being amended with anticipated issuance by the end of
                 Calendar Year 2009. Subsequent quarterly updates to
                 DARTS continuously pushed out the completion date. As
                 of March 2010, the proposed amendments were expected
                 to be submitted by February 2011, and the final rule issued
                 by January 2012.




Page 4                                                  Details of Finding
         •   Management of the Department's Data Centers at the
             Contractor Sites (DOE/IG-0803) was issued in October
             2008 and recommended that NNSA and the Office of
             Science (Science) provide guidance and require
             contractors and field sites to monitor server utilization,
             take advantage of existing server capacity, and consolidate
             servers, data centers, and common services, where
             appropriate. As we noted at the time the report was
             issued, savings available from consolidation of servers at
             just the sites reviewed could have amounted to as much as
             $2.3 million per year. The original target closure date for
             completion of NNSA's and Science's corrective actions
             was October 2009, and subsequent DARTS updates
             indicated that actions were proceeding as scheduled.
             However, as of March 2010, the target closure dates had
             been revised to March 2011 for Science and December
             2012 for NNSA. Science indicated in DARTS that a
             vacancy in a key management position was the reason for
             their delay, but there was no explanation for the revision
             to NNSA's target closure date.

         •   The Department of Energy's Management of Contractor
             Intergovernmental Personnel and Change of Station
             Assignments (DOE/IG-0761), was issued in March 2007,
             and recommended NNSA develop guidance for contractor
             use of Intergovernmental Personnel Act (IPA) and Change
             of Station (COS) assignments. The report noted the
             Department incurred about $11.3 million for IPA & COS
             assignments which either exceeded the 4-year allowable
             maximum term and/or had excessive relocation
             allowances. NNSA's original estimate to complete
             corrective actions was December 2007; however, as of
             February 2010, the guidance had not been issued. DARTS
             updates showed that the guidance had been pushed back
             due to scheduling issues and more pressing issues in
             Headquarters. NNSA is attempting to implement new
             guidance on IPA and COS assignments by September
             2010.

         •   Quality Assurance Standards for the Integrated Control
             Network at the Hanford Site's Waste Treatment Plant
             (DOE/IG-0764), was issued in May 2007 and
             recommended Environmental Management ensure that the
             integrated control network for the plant meets appropriate
             quality standards for its immobilization of high-level
             waste functions. The DARTS updates described the


Page 5                                              Details of Finding
                                   evaluations in progress from December 2007 through
                                   March 2009 and Environmental Management considered
                                   the corrective actions complete as of June 2009. The
                                   assurance certification was signed one year later, but the
                                   report remains open.

Management Guidance        Corrective actions taken by Departmental elements were
and Monitoring             not always complete, effective, or timely because of insufficient
                           guidance and inadequate monitoring and oversight of the audit
                           resolution and follow-up process. The OCFO, as the organization
                           tasked with oversight of the audit follow-up process, issued general
                           guidance requiring that Departmental elements perform reviews to
                           ensure corrective actions are effective. However, the guidance
                           lacked specificity regarding the criteria, timing, or process to be
                           followed in performing and documenting these formal audit
                           follow-up assessments. As a result, Departmental elements
                           submitted assurance certifications without always performing a
                           formal follow-up to assess the efficacy of actions taken. A number
                           of NNSA and program officials stated that they believe the policy
                           did not allow sufficient time to perform an assessment and also
                           meet the one-year audit closure requirement, since a thorough
                           effectiveness review should occur after the corrective actions have
                           had time to take effect. Despite these assertions, the Departmental
                           elements did not communicate the need for additional time beyond
                           the one-year closure date to perform the effectiveness reviews in
                           DARTS or to the OCFO.

                           Although the Department made improvements in reviewing report
                           recommendations for applicability to other organizations/sites, it
                           often did not take action to implement corrective actions at
                           applicable sites/programs other than those specifically mentioned
                           in the audit reports. We noted that, most of the audit coordinators
                           did not review OIG audit reports addressing issues in other
                           programs for applicability to their own program. Those that did,
                           generally did not require that the site/organization take action or
                           officially report back on whether or not actions were taken. We
                           also noted that the OCFO did not perform analyses of recurring
                           trends in audit findings to determine if broader corrective measures
                           were warranted.

Maximizing Audit Value Untimely, incomplete, or ineffective resolution of audit
                       recommendations could prevent the Department from realizing
                       significant savings or achieving operational efficiencies. For
                       example, we identified two open audit reports in DARTS over one
                       year old that contained recommendations that could potentially
                       achieve $14 million in savings. However, until corrective actions



Page 6                                                                    Details of Finding
                  are taken to address the various report recommendations,
                  realization of these savings may be delayed or lost. The
                  recommendations included issuance of guidance emphasizing
                  stronger controls over temporary personnel transferring between
                  contractors and other agencies and consolidation of computer
                  servers.

                  We also noted a number of instances of recurring problems
                  identified in audit reports we reviewed. Failure to correct these
                  recurring problems could have significant negative consequences,
                  to include:

                      •   Vital national security projects performed for the
                          Department of Defense may not meet cost estimates and
                          established performance schedules absent clearly defined
                          monitoring roles and responsibilities for WFO projects;

                      •   Failure to improve the timeliness of security clearance
                          terminations increases the risk of unauthorized access and
                          malicious damage to Department assets, potentially
                          endangering the Department's workers;

                      •   Departmental systems and the information they contain
                          could be subject to unnecessary risk if appropriate actions
                          are not taken to address information system inventory and
                          access control issues; and,

                      •   The Department may not be able to recover necessary
                          information during crucial events such as litigation of
                          health, safety, and environmental issues, if ineffective
                          records management systems are not improved.

RECOMMENDATIONS   To promote consistency throughout the Department, improve
                  program effectiveness, and ensure that corrective actions taken to
                  address audit report recommendations are implemented timely and
                  correct the deficiencies noted, we recommend that the Chief
                  Financial Officer, in coordination with the Administrator, NNSA,
                  the Under Secretary of Energy and the Under Secretary for
                  Science:

                       1. Develop specific guidance which addresses the criteria,
                          timing, and process to be followed in performing and
                          documenting formal audit follow-up assessments; and,




Page 7                                                           Recommendations
                  2. Review and revise policy and guidance, as appropriate, to
                     ensure it is realistic and in line with effective audit
                     resolution and follow-up objectives, including
                     establishing separate target milestones for the completion
                     of the various stages of the audit follow-up process.

             In addition, to ensure the adequacy of corrective actions taken to
             address the recommendations, we recommend that the
             Administrator, NNSA, the Under Secretary of Energy and the
             Under Secretary for Science:

                  3. Perform formal audit follow-up assessments in
                     accordance with Departmental guidance; and,

                  4. Review audit reports to determine applicability at other
                     sites and ensure that actions are taken to implement
                     corrective actions at applicable sites/programs other than
                     those specifically mentioned in the audit reports.

MANAGEMENT   The Department and NNSA concurred with our first three
REACTION     recommendations and partially concurred with Recommendation 4.
             Regarding Recommendation 1, the Office of the Chief Financial
             Officer (OCFO) has convened a working group to develop
             guidance to address the criteria, timing, and process to be followed
             in performing and documenting formal audit follow-up
             assessments. This working group will be responsible for reviewing
             and revising this guidance, as necessary, and establishing separate
             target milestones for the completion of the various stages of the
             audit follow-up process in accordance with Recommendation 2. In
             response to Recommendation 3, Departmental Management agreed
             to conduct follow-up reviews for high-risk audits, while NNSA
             agreed to look at ways to perform audit follow-up assessments, and
             validate corrective actions and effectiveness of those actions.
             However, regarding Recommendation 4, Management believes
             that current procedures satisfy the intent of the recommendation.
             Specifically, OCFO responded that Departmental audit
             coordinators currently review the weekly reports and other
             notifications issued by the OCFO for findings relevant to their sites
             and programs which may result in self-initiated reviews. For this
             reason, they do not plan to institute a formal follow-up and
             resolution process for offices not included in the original audit
             scope. Similarly, NNSA believes it is the responsibility of each
             Site/Program Manager to decide if that particular action needs to
             be taken at their site/program; however, they disagree that
             corrective actions should be taken if it [the recommendation] is not
             scope.



Page 8                                    Recommendations and Comments
AUDITOR    For the most part, we consider Management's responses and
COMMENTS   planned actions sufficient to meet the intent of our
           recommendations. We agree with NNSA, that each Site/Program
           Manager should decide if that particular action needs to be taken at
           their site/program. The planned actions appear to be consistent
           with Department Order 224, which requires each Departmental
           organization to review audit report findings and recommendations
           assigned to other organizations for applicability and to determine
           whether actions need to be taken to resolve the issues identified.




Page 9                                                            Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) had corrected previously
              reported problems with the audit resolution and follow-up process
              and whether related issues identified through recent audits had
              been resolved.

SCOPE         The audit was performed between August 2009 and April 2010.
              We conducted work at Departmental Headquarters and obtained
              information from Oak Ridge National Laboratory in Oak Ridge,
              Tennessee; Sandia National Laboratories in Livermore, California;
              Brookhaven National Laboratory in Upton, New York; Los
              Alamos National Laboratory located in Los Alamos, New Mexico;
              and, Lawrence Livermore National Laboratory at Livermore,
              California; the Y-12 National Security Complex in Oak Ridge,
              Tennessee; the East Tennessee Technology Park in Oak Ridge,
              Tennessee; the Savannah River Site Office in Aiken, South
              Carolina; and, the Nevada, Kansas City, and Pantex Site Offices in
              Las Vegas, Nevada; Kansas City, Missouri; and Amarillo, Texas,
              respectively.

METHODOLOGY   To accomplish the audit objective, we:
                  • Reviewed Departmental orders, policies and procedures
                    related to audit resolution and follow-up;

                  • Held discussions with Headquarters program officials
                    regarding the audit resolution and follow-up process;

                  • Analyzed 32 Office of Inspector General (OIG) audit
                    reports and associated recommendations from May 2007
                    through August 2009 to determine if target closure dates
                    were established and met;

                  • Reviewed Departmental Audit Report Tracking System
                    data to determine status of selected OIG audit
                    recommendations;

                  • Reviewed five judgmentally-selected OIG audit reports
                    from April 2005 through August 2009 to determine
                    whether corrective actions taken had addressed reported
                    issues;

                  • Obtained October 2008 through October 2009 data files of
                    active and terminated clearances from the Central
                    Personnel Clearance Index (CPCI) system at Headquarters
                    and the local site systems;


Page 10                                  Objective, Scope, and Methodology
Appendix 1 (continued)


                         • Compared contractor provided listings of terminated
                           employees to CPCI to determine the length of time it took
                           to terminate the clearances in CPCI;

                         • Held discussions with Headquarters officials to gain an
                           understanding of roles, responsibilities, and procedures
                           concerning termination of security clearances;

                         • Held discussions with Headquarters and field site officials
                           to gain an understanding of the controls in place to monitor
                           publicly accessible Federal website development and
                           postings; and,

                         • Reviewed performance related information to determine
                           compliance with the Government Performance and Results
                           Act of 1993.

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objective. We believe that
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective.

                    Accordingly, we assessed the significant internal controls and
                    performance measures established under the Government
                    Performance and Results Act of 1993. While a performance
                    measure for tracking target completion dates for each open audit
                    recommendation had been established, no performance measures
                    to track audit report closure or the effectiveness of corrective
                    actions had been developed. Because our review was limited, it
                    would not necessarily disclose all internal control deficiencies that
                    may have existed at the time of our audit. We obtained and
                    reviewed the computer processed data made available to us in
                    order to achieve our audit objective. We validated the reliability of
                    such data, to the extent necessary to satisfy our audit objective, by
                    tracing it to source documents or other supporting information.

                    Management waived an exit conference.




Page 11                                         Objective, Scope, and Methodology
Appendix 2

                                 PRIOR AUDIT REPORTS


  •   Follow-up Audit on Retention and Management of the Department of Energy's Electronic
      Records (DOE/IG-0838, September 2010). The Department of Energy's (Department)
      program to retain and dispose of its records inventory was not always operated efficiently
      and effectively. Although officials reported that our prior audit findings had been
      addressed, we continued to identify weaknesses with the Department's ability to retain
      and manage electronic records. In particular, we noted that Department programs, the
      National Nuclear Security Administration (NNSA), and field sites had not ensured that
      electronic records, including e-mail, were identified, stored and disposed of properly.
      Recommendations were to finalize and implement the updated Departmental policies and
      guidance; utilize a central authority to help ensure a coordinated approach; ensure that the
      identification, maintenance, and disposition of electronic records is managed through the
      use of records management applications, in accordance with Federal and Department
      requirements; and, develop and implement mandatory records management training.

  •   Work for Others Performed by the Department of Energy for the Department of Defense
      (DOE/IG-0829, October 2009). Because of the very nature of the Department of
      Energy's (Department) management and operating contracting model, Work for Others
      (WFO) projects may not always be technically compliant with Department of Defense
      (DoD) procurement regulations. In particular, it was noted that the National Nuclear
      Security Administration (NNSA) and its contractors had not adequately defined roles and
      responsibilities of the Department and those of DoD customers on WFO technical
      projects. Given the importance of the work products resulting from the collaborations
      between the Department and DoD, the auditors concluded that identifying avenues to
      improve these relationships would serve the national interest. The report identified
      several opportunities to achieve this objective and improve management of the
      Department's WFO process, which included ensuring that DoD customers are provided
      with all appropriate cost and pricing information as requested by the DoD customer and
      clarifying responsibilities for monitoring and control of WFO technical projects.

  •   The Department's Unclassified Cyber Security Program – 2009 (DOE/IG-0828, October
      2009). The Department continued to make incremental improvements in its unclassified
      cyber security program. The report disclosed that most sites had taken action to address
      weaknesses previously identified in the Office of Inspector General Fiscal Year (FY)
      2008 evaluation report. They improved certification and accreditation (C&A) of systems;
      strengthened configuration management of networks and systems; performed
      independent assessments; and, developed and/or refined certain policies and procedures.
      However, the report also identified opportunities for improvements in areas such as
      security planning and testing, systems inventory, access controls, and configuration
      management at sites managed by NNSA and across various Department program
      elements.

  •   Management of the Department's Data Centers at Contractor Sites (DOE/IG-0803,
      October 2008). Our review identified that the Department had not always taken


Page 12                                                                           Prior Reports
Appendix 2 (continued)

      advantage of opportunities to improve the efficiency of its contractor data centers. These
      data centers duplicated many of the functions or services provided by other co-located
      centers and had not efficiently utilized hardware technologies. The Department officials
      had not provided guidance or adequately communicated best practices to contractors and
      field sites regarding opportunities to consolidate data centers and improve the efficiency
      of information technology hardware and services. We estimated that the Department
      could save over $2.3 million annually through the use of more efficient hardware
      technologies that enable the consolidation of servers.

  •   The Department's Unclassified Cyber Security Program - 2008 (DOE/IG-0801,
      September 2008). The review identified opportunities for improvements in areas such as:
      certification and accreditation of systems (C&A); systems inventory; contingency
      planning; and, segregation of duties. Similar to past observations, these internal control
      weaknesses existed, at least in part, because not all Department program organizations,
      including NNSA, had revised and implemented policies incorporating Federal and
      Departmental cyber security requirements in a timely manner. Program officials had also
      not effectively performed management review activities essential for evaluating the
      adequacy of cyber security performance. In some cases, officials had not ensured that
      weaknesses discovered during audits and other examinations were recorded and tracked
      to resolution. Risk of compromise to the Department's information and systems remained
      higher than necessary.

  •   Management of the Department's Publicly Accessible Websites (DOE/IG-0789, March
      2008). The Department did not always ensure that it's publicly accessible websites were
      secure and that key Federal requirements regarding website management were enforced.
      The audit identified over 50 significant cyber security incidents in the last three FYs,
      about half involving defacement of web pages, which could have been prevented had
      proper security controls been in place. Also, content on publicly accessible web servers
      was not always controlled and reviewed periodically, contributing to an additional eight
      incidents which involved the exposure of personally identifiable information to
      unauthorized or malicious sources.

  •   Beryllium Surface Contamination at the Y-12 National Security Complex (DOE/IG-0783,
      December 2007). We found that the Y-12 National Security Complex (Y-12) had not
      consistently implemented key controls in non-beryllium operations areas as required by
      its Prevention Program. Specifically, when surface contamination was found outside
      beryllium operational areas, Y-12 had not always posted signs alerting workers to the
      potential for beryllium surface contamination, and performed or documented hazard
      assessments for beryllium contamination. Y-12's implementation of its Prevention
      Program was hampered because the contractor did not track recommendations made by
      its industrial hygienists to post contaminated areas and did not have a single repository of
      beryllium information that could be used by management and workers to identify
      contaminated locations. As a result of these control weaknesses, the Department and
      Y-12 may not be doing all that is possible to minimize the risk of worker exposure to
      beryllium in non-beryllium operations areas.




Page 13                                                                           Prior Reports
Appendix 2 (continued)

  •   Selected Aspects of the East Tennessee Technology Park's Security Clearance Retention
      Process (DOE/IG-0779, October 2007). Security clearances for terminated employees at
      the East Tennessee Technology Park (ETTP) were inappropriately and unnecessarily held
      active beyond the timeframe permitted under Department policy. Specifically, the
      auditors identified 54 contractor or subcontractor employees who had been terminated
      from ETTP for at least three months and whose clearances remained active. Most of the
      employees were terminated through layoffs or involuntary reductions-in-force.
      Additionally, 12 of the 54 employees maintained "Q" clearances, the highest level of
      security clearance provided to Departmental employees.

  •   The Department's Unclassified Cyber Security Program – 2007 (DOE/IG-0776,
      September 2007). Problems persisted with the (C&A) of Department systems related to
      assessing risks and ensuring the adequacy of security controls. The Department had not
      established a complex-wide inventory system and a number of organizations still had not
      ensured their contingency plans were in working order. Additional deficiencies were
      identified that reduced the Department's ability to protect its computer resources from
      unauthorized actions, so the Department could not always ensure the personal
      information on agency systems was adequately protected. Therefore, the risk of
      compromise to the Department's information and systems remained higher than
      acceptable.

  •   National Nuclear Security Administration's Construction of a Radiological/Nuclear
      Complex for Homeland Security, (DOE/IG-0775, September 2007). The Department of
      Homeland Security (Homeland Security) entered into an interagency agreement with
      NNSA's Nevada Site Office to construct the Radiological/Nuclear Countermeasures Test
      and Evaluation Complex (Rad/Nuc CTEC). Homeland Security requested that the
      project be fast-tracked so that construction at Nevada Test Site could begin before
      building design was completed in order to have the project completed by February 2007.
      The audit determined that management and coordination responsibilities between the
      Department and Homeland Security were not clearly defined and the project was not
      appropriately staffed. The audit concluded that experience with the Rad/Nuc CTEC
      project provided important "lessons learned" for managing the Department's expanding
      portfolio of WFO projects.

  •   The Department's Audit Resolution and Follow-up Process (DOE/IG-0766, May 2007).
      The Department had made significant improvements to many aspects of its follow-up
      system. In particular, it had ensured that target closure dates were established for all
      agreed-upon recommendations and, in most cases, audit recommendations were closed in
      a timely manner. However, we found that, in some cases, agreed upon recommendations
      had been closed, but corrective actions had either not been completed or were ineffective
      because: (1) the Department had not given sufficient management attention to the audit
      resolution and follow-up process; (2) corrective actions were not communicated to
      applicable sites or subordinate organizations for implementation; (3) officials had not
      verified that corrective actions were implemented or fully addressed previously issued




Page 14                                                                        Prior Reports
Appendix 2 (continued)

      findings; or, (4) Departmental elements that had not been a party to the initial reviews
      had not been examining audit report findings and recommendations to determine whether
      actions needed to be taken to resolve similar issues in their organizations.

  •   Quality Assurance Standards for the Integrated Control Network at the Hanford Site's
      Waste Treatment Plant (DOE/IG-0764, May 2007). Our review found that the Waste
      Treatment Plant control system did not meet applicable quality assurance standards.
      Bechtel National failed to impose parallel requirements on the subcontractor which
      supplied the control system. In addition, Environmental Management officials did not
      adequately conduct necessary tests to ensure the control system for the integrated control
      network at the Waste Treatment Plant met appropriate quality assurance standards. As a
      result, the Department could not be sure the Plant's current system was suitable for
      processing nuclear waste.

  •   The Department of Energy's Management of Contractor Intergovernmental Personnel
      and Change of Station Assignments (DOE/IG-0761, March 2007). The Department did
      not have a system to determine the number and propriety of Intergovernmental Personnel
      Act (IPA) and Change of Station (COS) assignments. We performed a detailed review of
      77 such assignments and found that the Department was not actively ensuring that the
      IPA and COS assignments were cost effective; operated in accordance with existing
      procedures or good business practice; or, that taxpayer-provided funds supporting
      IPA/COS assignments were put to the best possible use. We found that 31 of the 77
      assignments had questionable components – the Department incurred about $11.3 million
      for IPA & COS assignments which either exceeded the 4-year allowable maximum term
      and/or had excessive relocation allowances.

  •   The Retention and Management of the Department's Records (DOE/IG-0685, April
      2005). The Department's program to retain and dispose of its records inventory was not
      always operated efficiently and effectively. The Department had not adopted a
      comprehensive records management program. Specifically, the Department had not
      implemented a policy to meet National Archives and Records Administration
      requirements governing records management nor had it placed sufficient management
      emphasis on ensuring that records were adequately maintained. Recommendations were
      to develop and finalize detailed policy, implement guidance to support complex-wide
      records management policy, and ensure the senior records manager had sufficient
      authority for leading, planning, and managing the Department's records management
      program.




Page 15                                                                          Prior Reports
Appendix 3




Page 16      Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
                                                                    IG Report No. DOE/IG-0840

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
